                                      SOCIAL SECURITY
MEMORANDUM

Date:      May 13, 2010                                                                Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Conversion of the Social Security Administration’s Legacy File Management System
           (A-14-09-19097)


           The attached report presents the results of our audit. Our objectives were to
           (1) evaluate the effectiveness and efficiency of the Social Security Administration’s
           conversion of its Master Data Access Method file management system to the DB2 Data
           Base Management System and (2) provide insights as to best practices and lessons
           learned for future systems conversions.

           Please provide within 60 days a corrective action plan that addresses each
           recommendation. If you wish to discuss the final report, please call me or have your
           staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
           (410) 965-9700.




                                                                 Patrick P. O’Carroll, Jr.

           Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  CONVERSION OF THE SOCIAL SECURITY
    ADMINISTRATION’S LEGACY FILE
        MANAGEMENT SYSTEM

       May 2010    A-14-09-19097




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                      Executive Summary
OBJECTIVE
Our objectives were to (1) evaluate the effectiveness and efficiency of the Social
Security Administration’s (SSA) conversion of its Master Data Access Method
(MADAM) 1 file management system to the DB2 Data Base Management System
(DBMS) 2 and (2) provide insights as to best practices and lessons learned for future
systems conversions.

BACKGROUND
MADAM was developed in the early 1980s to support the storage and retrieval of SSA’s
major program Master Files. MADAM was written in a programming language 3 that is
no longer widely used, which, when combined with the system’s complexity, makes it
difficult to train or recruit new programmers. Furthermore, with the increasing number of
retirements among SSA’s Systems personnel, there will be fewer individuals who can
maintain MADAM.

Should MADAM not operate properly, it would be difficult for SSA to process the vast
amount of data needed to fulfill its mission. As such, the conversion of MADAM to
another DBMS is central to SSA’s processing and should be managed as a major
information technology (IT) investment. 4

SSA chose to replace its MADAM file management system with DB2, a commercial
DBMS that can be accessed by industry standard language. The MADAM to DB2
Conversion Project (Project) consists of three sequential phases.

1
 MADAM is a computer system that accesses and manages SSA’s major databases, known as Master
Files: Master Beneficiary Record (MBR), Supplemental Security Record (SSR), Master Earnings File
(MEF), and Numident/Alphident. These Files contain information used by Social Security programs, such
as Retirement, Survivors, and Disability Insurance benefits administered by SSA. See Appendix C for
more detailed information on SSA’s Master Files.
2
 DB2 is one of a family of International Business Machines’ (IBM) DBMSs. A DBMS is a set of computer
programs that control the creation, maintenance, and use of a database.
3
 MADAM was written in IBM Assembler Language. Assembler is a programming language that uses
symbols to represent operation codes and storage locations.
4
  Office of Management and Budget (OMB) Circular A–11, Preparation, Submission and Execution of the
Budget, Part 7, Section 300, Planning, Budgeting, Acquisition, and Management of Capital Assets, page
4, states a “Major investment means a system or acquisition requiring special management attention
because of its importance to the mission or function of the agency, a component of the agency, or
another organization; is for financial management and obligates more than $500,000 annually; has
significant program or policy implications; has high executive visibility; has high development, operating,
or maintenance costs; is funded through other than direct appropriations; or is defined as major by the
agency’s capital planning and investment control process.”


Conversion of SSA’s Legacy File Management System (A-14-09-19097)                                       i
•     Phase I: Conversion of four MADAM data files (MBR, SSR, MEF, and
               Numident/Alphident)5 to a DB2 relational database.
•     Phase II: Modification of the application programs to eliminate MADAM Interface. 6
•     Phase III: Modification of application programs to directly access the DB2 database.

SSA is in Phase I of the conversion and has completed two of the four conversions of
the MADAM data files to DB2.

RESULTS OF REVIEW
The Project team worked with various stakeholders to implement the Project and
resolved various issues encountered during the process. To date, SSA has
successfully completed Phase I for the Numident/Alphident and MEF. Although the
Project team performed well, we found the following.

•     SSA should discuss with OMB the need to classify the Project as a major IT
      investment.
•     SSA lacked a long-term, comprehensive strategic Project plan.
•     The Project methodology resulted in a less than optimal design.
•     SSA did not consider other alternatives for replacing MADAM.
•     SSA needed to improve certain project management practices.

CONCLUSION AND RECOMMENDATIONS
We found that SSA had effectively implemented the Project to replace MADAM;
however, the Project implementation strategy was not efficient because the strategy
resulted in less than optimal database design.

Based on our review, we recommend SSA:

1. Discuss with OMB the need to classify the Project as a major IT investment.




5
    See Appendix C for more detailed information on SSA’s Master Files.
6
 The MADAM Interface directs data requests to the correct databases for processing during Phase I so
SSA can keep the application program changes to a minimum. See Appendix D for the function of the
MADAM Interface.


Conversion of SSA’s Legacy File Management System (A-14-09-19097)                                 ii
2. Establish a long-term, comprehensive strategic plan for the Project and related
   major IT initiatives. For the Project, SSA should establish and document a program
   plan to cover the full scope of the Project. The program plan should include
   estimated costs for all resources, a schedule for all tasks, and performance goals for
   the whole lifecycle of the project.

3. Ensure an Alternatives Analysis is performed for each future major IT investment.

4. Continue with its conversion, but also assess the remaining portions of the Project to
   determine the full scope and costs of the current MADAM conversion to DB2
   strategy and document the advantages and disadvantages for delaying the
   application rewrite efforts and the impact on total project costs.

5. Ensure compliance with OMB and SSA project management requirements.

AGENCY COMMENTS
SSA agreed with Recommendations 1, 3 and 5, and partially agreed with
Recommendations 2 and 4. The full text of SSA’s comments is included in Appendix E.

OIG RESPONSE
Regarding SSA’s partial agreement with Recommendations 2 and 4, we appreciate the
Agency’s comments but continue to believe strongly that a long-term, comprehensive
strategic plan should have been established for the Project and any other related major
IT initiatives. We also continue to believe SSA should assess the remaining portions of
the Project as discussed in this report.




Conversion of SSA’s Legacy File Management System (A-14-09-19097)                      iii
                                                                           Table of Contents
                                                                                                                       Page

INTRODUCTION ..................................................................................................... 1

RESULTS OF REVIEW .......................................................................................... 4

SSA Should Discuss with OMB the Need to Classify the Project as a
Major IT Investment................................................................................................. 4

The Social Security Administration Lacked a Long-Term, Comprehensive
Strategic Project Plan .............................................................................................. 6

The DB2 Conversion Methodology May Result in a Less than Optimal
Design .................................................................................................................... 8

The Social Security Administration Did Not Consider Other Alternatives for
Replacing Master Data Access Method .................................................................. 9

The Social Security Administration Needed to Improve Certain Project
Management Practices.......................................................................................... 10

CONCLUSION AND RECOMMENDATIONS ....................................................... 13

APPENDICES

APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – The Social Security Administration’s Master Files

APPENDIX D – The Social Security Administration’s DB2 Conversion Project Phases

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments




Conversion of SSA’s Legacy File Management System (A-14-09-19097)
                                                                        Introduction
OBJECTIVE
Our objectives were to (1) evaluate the effectiveness and efficiency of the Social
Security Administration’s (SSA) conversion of its Master Data Access Method 1
(MADAM) file management system to the DB2 Data Base Management System
(DBMS) 2 and (2) provide insights as to best practices and lessons learned for future
systems conversions.

BACKGROUND
MADAM was developed in the 1980s to support the storage and retrieval of SSA’s
major program Master Files. 3 These data files touch the lives of every American from
birth to death. SSA also stores hundreds of millions of medical records, making it the
largest repository of such records in the world. These records and the applications that
use them are not merely “mission critical,” they are truly “citizen critical.”

MADAM was written in a programming language 4 that is no longer widely used, which
combined with MADAM’s complexity, makes it difficult to train or recruit new
programmers. Furthermore, with the increasing retirement of SSA’s Systems
personnel, there are fewer individuals who can maintain MADAM. Because MADAM
was written in a programming language closely tied to the operating system, 5 any
changes to the operating system have to be tested to determine their impact on
MADAM. There is a concern that future operating system changes may render MADAM
unusable, and the technical knowledge and skills needed to timely remedy the situation
may not be available. Consequently, future operating system changes could jeopardize
SSA’s ability to maintain MADAM and lead to prolonged outages.



1
 MADAM is a computer system that accesses and manages SSA’s major databases, known as Master
Files: Master Beneficiary Record (MBR), Supplemental Security Record (SSR), Master Earnings File
(MEF), and Numident/Alphident. These files contain information used by Social Security programs such
as Retirement, Survivors, and Disability Insurance benefits administered by SSA. See Appendix C for
more detailed information on SSA’s Master Files.
2
 DB2 is one of a family of International Business Machines’ (IBM) DBMS. A DBMS is a set of computer
programs that control the database’s creation, maintenance, and use.
3
    See Footnote 1.
4
 MADAM was written in IBM Assembler Language. Assembler is a programming language that uses
symbols to represent operation codes and storage locations.
5
  Operating systems are the interface between hardware and user. An operating system is responsible
for managing and coordinating activities as well as sharing the computer’s resources. A DBMS accepts
and instructs the operating system to transfer the data requested by other programs.


Conversion of SSA’s Legacy File Management System (A-14-09-19097)                                      1
Should MADAM not operate properly, it will be difficult for SSA to process the vast
amount of data needed to fulfill its mission. As such, conversion of MADAM to another
DBMS is central to SSA’s operations.

The conversion project changes the way SSA stores its data. This conversion is
independent from SSA’s planned conversion of its application programs6 from Common
Business Oriented Language (COBOL) to another programming language. 7

Besides the need for SSA to replace MADAM to resolve the risks of system
maintenance, conversion to an industry-standard and modern DBMS will provide SSA
the ability to perform on-line updates to Master File data. It will also give the Agency the
flexibility to use commercially available software to develop Web-based solutions to
meet current and future technology needs.

MADAM Replacement Project Phases

SSA chose to replace MADAM with DB2, an industry-standard, modern DBMS. The
MADAM to DB2 Conversion project (Project) consists of three sequential phases.

•     Phase I: Conversion of MADAM data files to a DB2 relational database.
•     Phase II: Modification of the application programs to eliminate MADAM Interface. 8
•     Phase III: Modification of application programs to directly access the DB2 database.

Phase I includes the conversion of four Master Files: 9 MBR, SSR, MEF, and
Numident/Alphident, each estimated to take 2 years. During this Phase, SSA’s strategy
is to keep the modifications to its application programs that use MADAM data to a
minimum. SSA started Phase I on the Numident/Alphident, in October 2005. To date,
SSA has met its project milestones and completed conversion of the Numident/
Alphident and MEF. After the completion of the MEF conversion, the SSR and MBR will
be converted, with the expected Phase I completion date at the end of Fiscal Year
2013. At this stage, MADAM will be retired, and DB2 will become the management
system for SSA’s Master Files.




6
 Application programs are a subclass of computer software that employs the capabilities of a computer
directly and thoroughly to a task that the user wishes to perform. Some examples of SSA’s application
programs are the Retirement, Survivors and Disability Insurance Accounting System, Title II System, and
Supplemental Security Income Record Maintenance System.
7
    COBOL is a programming language developed in the late 1950s for business applications.
8
 The MADAM Interface directs data requests to the correct databases for processing during Phase I so
SSA can keep the application program changes to a minimum. See Appendix D for the function of the
MADAM Interface.
9
    See Appendix C for more detailed information on SSA’s Master Files.


Conversion of SSA’s Legacy File Management System (A-14-09-19097)                                      2
Phases II and III, which will involve major rewrites of application programs, are
necessary to convert applications that support SSA’s programs10 to a DB2-based
environment. Many of these application programs were written in COBOL. However,
SSA has not developed plans for these two Phases. See Appendix D for more details
related to the Project.




10
  These programs include Old-Age, Survivors and Disability Insurance and Supplemental Security
Income.


Conversion of SSA’s Legacy File Management System (A-14-09-19097)                                3
                                                          Results of Review
We found that SSA had effectively implemented the Project to replace MADAM.
However, the Project implementation strategy was not efficient because it resulted in
less than optimal database design.

SSA worked with stakeholders to successfully complete Phase I for the
Numident/Alphident and MEF, and resolved various issues encountered during the
process. Amid this success, we found the following.

•    SSA should discuss with OMB the need to classify the Project as a major
     Information Technology (IT) investment.
•    SSA lacked a long-term, comprehensive strategic Project plan.
•    The DB2 conversion methodology may result in a less than optimal design.
•    SSA did not consider other alternatives for replacing MADAM.
•    SSA needed to improve certain project management practices.

SSA SHOULD DISCUSS WITH OMB THE NEED TO CLASSIFY THE PROJECT AS A
MAJOR IT INVESTMENT

The Office of Management and Budget (OMB) requires that agencies demonstrate
sound project management for all major investments.11 This Project meets OMB’s
definition of a major investment due in part to its importance to the mission or function of
the Agency. 12 The Project ensures the continued availability of the Agency’s major data
files and therefore is critical to SSA’s mission and function. The Project is also a high-
risk project because delay or failure will impose unacceptable risk on SSA. SSA should
have identified and managed the Project as a major IT investment. 13



11
  Project Management requirements are documented in OMB Circular A–11, Preparation, Submission
and Execution of the Budget, Part 7, Section 300, Planning, Budgeting, Acquisition, and Management of
Capital Assets, and OMB, Capital Programming Guide, V.2.0, June 2006, Supplement to OMB Circular
A-11, Part 7.
12
  OMB guidance states, a “Major investment means a system or acquisition requiring special
management attention because of its importance to the mission or function of the agency, a component of
the agency, or another organization; is for financial management and obligates more than
$500,000 annually; has significant program or policy implications; has high executive visibility; has high
development, operating, or maintenance costs; is funded through other than direct appropriations; or is
defined as major by the agency’s capital planning and investment control process.” OMB Circular A–11,
Part 7, section 300, supra at page 4.
13
  Throughout OMB Circular A–11, Preparation, Submission and Execution of the Budget, Part 7,
Section 300, Planning, Budgeting, Acquisition, and Management of Capital Assets, investment and
project are interchangeable.


Conversion of SSA’s Legacy File Management System (A-14-09-19097)                                       4
The Master Files are at the core of SSA’s operations and, as such, are considered
SSA’s equivalent of “corporate jewels.” SSA has been concerned about continued
maintenance of MADAM because of the difficulties with obtaining and keeping
programmers with specialized knowledge and skills. The Project is a major IT
investment that requires a higher level of involvement from both top SSA management
and OMB to ensure timely and proper resource allocation decisions to achieve the
Agency’s strategic goals. The Social Security Advisory Board (SSAB) expressed similar
unease in certain project management areas related to the Project in a recent report. 14
The SSAB stated that it “. . . remains concerned that there are not sufficient resources
being devoted to this conversion and believes that this effort should be on a more
aggressive schedule.”

The Computer & Communications Industry Association (CCIA) 15 pointed out that “. . . if
SSA fails to modernize its mainframe database and associated application programs
now, the precious citizen data it manages on behalf of the nation could be locked into
obsolete formats for decades to come.” CCIA also stated that SSA’s obsolete database
architecture would prevent the Agency from aggressively expanding its offer of on-line
services to citizens to help resolve SSA’s increasing workload due to baby boomers
reaching retirement age.

Had SSA identified and managed the Project as a major IT investment, some of the
issues discussed in our report may not have occurred. For each major investment, SSA
needs to prepare and submit to OMB a capital budgeting document, the Capital Asset
Plan and Business Case Summary. 16 Further, the Agency is required to report the
results of, or verify that it performed, the required project management activities related
to the major investment in this document. Additionally, all SSA major IT projects go
through a review process to ensure accurate information is reported to OMB. This
process not only assures the Agency’s Chief Information Officer, who reports directly to
the Commissioner of SSA, is directly involved in the capital planning process, it also
assists OMB in deciding on the amount of resources to provide the Agency.

In addition, major IT projects receive additional oversight through various reporting
mechanisms and reviews. This includes quarterly reporting to the Information
Technology Advisory Board (now the Strategic Information Technology Assessment and
Review process), Office of Systems project reviews, and Office of the Chief Information
Officer Systems Procurement Request milestone review. 17 These reviews would

14
  SSAB, Bridging the Gap: Improving SSA’s Public Service Through Technology, April 2009,
Pre-publication Release.
15
 CCIA, Making Social Security’s Citizen Database Safe for the Future, by Jeff Gould, Peerstone
Research, November 2009.
16
  OMB Circular A-11, Part 7, Planning, Budgeting, Acquisition, and Management of Capital Assets,
Section 300.2.
17
  SSA, Fiscal Year 2010 Information Technology Capital Planning and Investment Control Process,
February 12, 2009, page 10.


Conversion of SSA’s Legacy File Management System (A-14-09-19097)                                  5
provide higher Agency management attention to the Project should it be identified and
managed as a major IT investment. We recommend that SSA discuss with OMB the
need to classify the Project as a major IT investment.

SSA LACKED A LONG-TERM, COMPREHENSIVE STRATEGIC PROJECT PLAN

SSA recognized the need to convert MADAM to a commercial product in 2005.
However, SSA did not develop an overall long-term, comprehensive strategic plan that
covered all three Phases of this IT project. SSA only developed a high-level plan for
Phase I of the conversion and short-term tactical plans for each Master File conversion
as the Agency moved to covert one Master File at a time.

Planning and analysis conducted to date has been limited to Phase I of the Project.
Since October 2005, SSA has converted the Numident/Alphident and MEF. As part of
Phase I, SSA plans to convert the SSR and MBR. However, SSA has not developed
detailed plans to convert these files. Further, SSA does not have planning documents
for Phases II and III, which will involve significant application reprogramming efforts.
For these Phases, SSA has not performed sufficient long-term, comprehensive strategic
planning to cover the system development lifecycle of the project. See Appendix D for
more details on the three Phases of the Project.

We reviewed SSA’s planning documents for this Project and found they lacked critical
decisionmaking information. For example, SSA stated that the critical MADAM
maintenance staff will not be available over time, but it did not provide statistics to show
how urgent this condition was. SSA also stated that a full rewrite of application code to
support the DB2 conversion would be too resource intensive. However, no analyses or
estimates were provided to determine the level of resources needed to reprogram the
Agency’s applications. This information is critical to assist SSA management in making
timely and informed strategic resource allocation decisions. Without an overall long-
term, comprehensive plan for all Phases of the Project, SSA management cannot
understand the full scope, potential risks and costs and benefits of the Project.
Therefore, SSA management is at risk of not making proper and timely strategic
decisions to ensure the continuity of critical services and the most efficient use of
Government resources.

Further, OMB requires that agencies establish a performance measurement baseline
with clear cost, schedule, and performance goals for all major investments.18 The
baseline plan should cover the entire system development life cycle of a project.
Agencies need to document a systematic process for program management of major
investments including

•    integration of program scope, schedule, and cost objectives;
•    establishment of a baseline plan for accomplishing program objectives; and

18
  OMB Memorandum M-05-23, Improving Information Technology (IT) Project Planning and Execution,
Attachment A, August 4, 2005.


Conversion of SSA’s Legacy File Management System (A-14-09-19097)                                 6
•     use of program performance measurement techniques during execution of the
      program. 19

Prior OIG reports 20 have concluded that SSA lacked proper long-term, strategic
planning at both the Agency and project levels. These reports, as well as other
sources, have indicated that the lack of proper long-range and integrated strategic
planning for significant projects has resulted in delays, re-planning, and unacceptable
infrastructure risks. 21, 22

The Project was created to address the processing risks at the core of SSA’s
operations. The Project could impact SSA’s ability to deliver the necessary future
electronic services and achieve its major IT initiatives timely. SSA should have
prepared a long-term, comprehensive strategic plan to ensure the Project is
implemented efficiently, timely, and seamlessly without impacting other major initiatives.
For example, SSA has a separate initiative to convert portions of its application
programs written in COBOL to a different language capable of providing more robust
Web technology. SSA should consider the possibility of integrating the COBOL
conversion with Phase III 23 of the Project to ensure the most effective and efficient use
of limited resources.




19
  OMB Circular A–11, Part 7, Section 300, Planning, Budgeting, Acquisition, and Management of Capital
Assets, page 5.
20
   The Social Security Administration’s Information Resources Management Strategic Plan
(A-14-07-27133), September 2007; Congressional Response Report: The Social Security
Administration’s Information Technology Strategic Planning (A-44-09-29120), June 2009; The Social
Security Administration’s Disaster Recovery Process (A-14-09-29139), June 2009; Processing Capacity
of the Social Security Administration’s Durham Support Center (A-14-09-19100), September 2009.
21
  One example is related to SSA’s decision to build a second data center. It did not consider the second
data center as a disaster recovery site during the design phase. Source: Social Security Administration’s
Disaster Recovery Process (A-14-09-29139) June 2009.
22
   Statement of Sylvester J. Schieber, Chairman, SSAB, to the Subcommittee on Social Security House
Committee on Ways and Means, House of Representatives, oversight hearing on the progress made by
SSA in Implementing the American Recovery and Reinvestment Act of 2009, April 28, 2009.
Mr. Schieber indicated in his testimony that the current 30-year-old data processing center, the National
Computer Center (NCC), would no longer be viable by the end of 2012. He also indicated that SSA
informed the SSAB that a new NCC will take 4 to 5 years to plan, develop and build, and another 2 to
3 years would be needed to complete all systems set-up and integration activities. However, a second
data center, with backup capability for the NCC is expected to have full functionality by 2013.
23
     See Appendix D for information about Phase III of the Project.


Conversion of SSA’s Legacy File Management System (A-14-09-19097)                                           7
We recommend SSA develop a long-term, comprehensive strategic plan for the Project
and related major IT initiatives. The plan should include estimated costs for all
resources, schedules for all tasks, and performance goals for the Project’s entire life
cycle.

THE DB2 CONVERSION METHODOLOGY MAY RESULT IN A LESS THAN
OPTIMAL DESIGN

According to a 2007 assessment 24 performed by the National Research Council (NRC),
SSA’s approach for converting to DB2 would limit the functionality of existing
applications and compromise the design of the new database. The report pointed out
that this approach would cause poor performance, and the NRC believed that a strategy
involving a total conversion of the databases and a rewrite of the applications is likely to
yield the best results in the long run. SSA considered the issues identified by the NRC
and stated it also had considered the current legislative workloads and human
resources required to perform full application rewrites. When all factors were
considered, SSA stated that it decided on the current strategy because it is “. . . a
cautious and less risky approach.” In addition, SSA stated the database design under
its current strategy was developed considering a balance between current scope, future
efforts, and performance. SSA also indicated the database design can support SSA’s
current processing and can be changed to support new requirements that may be
developed.

SSA’s DB2 conversion efforts are based on a strategy that all MADAM conversions to
DB2 should have little or no impact on existing applications. In other words, the
applications would not be rewritten. According to the NRC report, this strategy has
prevented SSA from taking full advantage of the more contemporary software and
hardware capabilities of DB2. NRC stated this approach not only limits the functionality
of those applications but compromises the design of the new database. SSA also did
not fully consider large-scale, relational databases other than DB2.

Further, NRC reported that SSA’s conversion approach is to turn the DB2 database into
a MADAM simulator, resulting in a database design with lower than optimal
performance than a DB2 database. This indicates that SSA may need to make
additional changes in its database design and potentially rewrite application programs to
obtain better performance and take full advantage of DB2.

We discussed our concerns with SSA staff aware of the issues and they agreed that, to
address database efficiency and functionality, additional efforts and resources may be
needed to correct these issues. This could include redesigning the DB2 database and
rewriting applications depending on the timing of the redesign.



24
  Social Security Administration Electronic Service Provision: A Strategic Assessment, published in 2007.
SSA’s Deputy Associate Commissioner for Electronic Services requested the NRC to examine and report
on SSA’s proposed e-government strategy and the underlying service delivery and IT infrastructure.


Conversion of SSA’s Legacy File Management System (A-14-09-19097)                                      8
The Government must effectively manage capital investments to ensure scarce public
resources are wisely invested. As a Federal agency, SSA needs to take a system
development life-cycle approach for the conversion of MADAM to DB2 when
considering its implementation strategy. 25 As such, we recommend SSA continue with
its conversion but also assess the remaining portions of the Project to determine the full
scope and costs of the current strategy and document the advantages and
disadvantages of delaying the application rewrite effort as well as the impact on total
Agency resources.

SSA DID NOT CONSIDER OTHER ALTERNATIVES FOR REPLACING MADAM

SSA did not perform an Alternatives Analysis for replacing MADAM. 26 The Project
planning documents were developed based on an Agency decision that DB2 would be
the DBMS to house the Agency’s Master Files. The conversion was targeted for DB2
because SSA's general direction was to use DB2 for mainframe applications. SSA did
not consider any other alternatives. SSA also stated its general plan was to use DB2
for mainframe applications. According to Agency staff, SSA is an IBM shop in which the
vast majority of its processing occurs on the mainframe. It had begun migration to
IBM’s DB2 platform before the Project.

Since no Alternatives Analysis was completed, SSA management did not consider other
alternatives or the potential advantages and disadvantages of DB2 as compared to
other DBMSs. Moreover, SSA management did not know whether DB2 was the most
cost-effective alternative. For example, different DBMS alternatives may have
significantly different license fees, maintenance fees, programming and administrative
costs, and hardware costs. They may differ in programmability and administration
needs. All these factors should have been considered in making the major capital
investment decision.

To promote efficient resource allocation through well-informed decisionmaking by the
Government, OMB requires that agencies conduct Alternatives Analyses for major
capital investments. 27 A prior OIG audit reported that SSA did not properly perform


25
  OMB guidance “. . . stresses the importance of all phases in the capital asset lifecycle. By linking
planning and budgeting to procurement to the management of capital assets, the resulting all
encompassing roadmap encourages agencies to develop an Agency Capital Plan that provides for the
long-range planning of the capital asset portfolio in order to meet the goals and objectives in the strategic
and annual plan.” OMB, Capital Programming Guide, V 2.0, supra at page 5.

26
  OMB Circular A–11, Part 7, Section 300.4, refers to Alternatives Analysis as an analysis of alternative
approaches to addressing the performance objectives of an investment, performed before the initial
decision to make an investment, and updated periodically as appropriate to capture changes in the
context for an investment decision. This section also indicates that alternatives analysis details should be
available upon request.

27
     OMB Capital Programming Guide, V 2.0, section I.5.3, pages 17-18.



Conversion of SSA’s Legacy File Management System (A-14-09-19097)                                           9
Alternatives Analyses for some of its other major IT capital projects. 28 Adequately
prepared Alternatives Analyses are crucial for both SSA and OMB to make sound IT
investment decisions. Although the decision has already been made to use DB2, SSA
needs to ensure an Alternatives Analysis is performed for future major IT capital
investment projects.

SSA NEEDED TO IMPROVE CERTAIN PROJECT MANAGEMENT PRACTICES

We also found other project planning and management areas that SSA needed to
improve.

Cost-Benefit Analysis

A Cost-Benefit Analysis (CBA) provides critical information for SSA’s IT resources
allocation decisionmaking process. Federal guidance recommends, and SSA guidance
requires, comprehensive analysis of all project costs and benefits. 29 We found that the
CBA prepared for the Project was missing important information or contained
inaccuracies that could render the results of the analysis unreliable.

•    The CBA conducted for the Project did not include all cost and benefit elements
     related to the Project. The only Project benefit included was the cost avoidance for
     a potential outage. The CBA did not include any costs for maintaining MADAM. The
     costs for maintaining and administering MADAM, as well as the hardware costs and
     all other relevant costs, should have been included. The excluded cost elements
     may have a significant impact on CBA results. For example, MADAM requires the
     use of a particularly expensive piece of hardware that should have been included in
     the CBA. DB2 requires more storage and processing capacity.

•    SSA accurately included cost avoidance as one of the Project benefits because the
     Project will prevent the potential outage of SSA’s program database. However, the
     estimated level of cost avoidance is based on a standard formula SSA developed for
     a system outage, which did not consider all impacted components or the length and
     frequency of the potential outage based on the decreased MADAM maintenance
     staff level. This formula should have been tailored to reasonably reflect the
     expected impact of a MADAM outage on SSA as a whole. In addition, SSA could
     not provide sufficient support for the assumptions underlying the formula. For the
     Project, SSA also should have considered “social” costs of not replacing MADAM, 30


28
 Reliability and Accuracy of the Social Security Administration’s Exhibit 300 Submissions to the Office of
Management and Budget (A-14-08-18018), September 2008.
29
  OMB Circular A-94, Guidelines and Discount Rates for Benefit-Cost Analysis of Federal Programs,
October 29, 1992, section 5.a.1, page 4 and SSA, Cost Benefit Analysis Guidance Fiscal Years 08/09 &
Beyond, Section III.G, page 7.
30
  OMB Circular A-94, section 6, page 6, indicates, in part, that CBAs should include comprehensive
estimates of the expected benefits and costs to society.


Conversion of SSA’s Legacy File Management System (A-14-09-19097)                                      10
      such as the impact on Social Security beneficiaries if a benefit payment is not
      received or a Social Security number request to obtain employment is not
      processed.

Since SSA uses the CBA results in its IT planning process, a properly developed CBA
would help SSA allocate and manage Agency resources for its IT projects. We
recommend SSA ensure compliance with Federal and Agency guidance on the
development and implementation of a CBA.

Risk Management

OMB requires that Federal agencies have a disciplined capital programming process
that addresses, among other things, risk management. 31 “Risk management is the
systematic process of identifying, analyzing, and responding to project risk. It is an
ongoing process that requires continuous risk identification, assessment, planning,
monitoring, and response.” 32 “Failure to analyze and manage the inherent risk in all
capital asset acquisitions may contribute to cost overruns, schedule shortfalls, and
acquisitions that fail to perform as expected.” 33 Without the knowledge of the risks
involved, managers cannot make the best decisions for allocating resources among
competing investments. 34

SSA included some of the Project risks in its planning documents—Proof of Concept 35
and Project Scope Agreement. 36 However, it did not fully document the risks
involved with its current DB2 implementation strategy. 37 For example, some risk areas
that should have been documented and discussed in more depth include the



31
  OMB guidance explicitly provides that “Agencies must have a disciplined capital programming process
that addresses project prioritization between new assets and maintenance of existing assets, risk
management and cost estimating to improve the accuracy of cost, schedule and performance provided to
management, and the other difficult challenges proposed by asset management and acquisition.” OMB
Capital Programming Guide, page 1.

32
     OMB, Capital Programming Guide, supra, Appendix 5, Risk Management, page 77.
33
  OMB, Capital Programming Guide, supra, Appendix 6, Principles of Budgeting for Capital Asset
Acquisitions, page 85.
34
     OMB, Capital Programming Guide, supra, page 2.
35
     Proof of Concept is a synopsis of a certain method or idea(s) to demonstrate its feasibility.
36
  A Project Scope Agreement defines the boundaries of the project and clearly describes the project
teams and customers’ understanding of the scope of the proposed project.
37
  OMB, Capital Programming Guide, supra, Section I.5.5, page 19, states, in part, that “An effective Risk
Management Plan addresses the following risk areas: schedule risk; cost risk; technical feasibility; risk of
technical obsolescence; dependencies between a new project and other projects or systems;
procurement and contract risk, and resources risks.”


Conversion of SSA’s Legacy File Management System (A-14-09-19097)                                         11
•     additional cost of potential database redesign in the future to improve performance,
      efficiency, and functionality that may be required under the conversion strategy;
•     security risk associated with moving from a proprietary to a commercial DBMS; and
•     anticipated impact of increased processing time after conversion.

For example, SSA experienced unexpected longer processing time after its conversion
of the Numident/Alphident. SSA made some adjustments to the Numident/Alphident
update process to address the performance issues. As of August 2009, the processing
time for the Numident/Alphident using DB2 was still two to three times longer than under
MADAM. According to SSA staff, the additional processing time for the Numident/
Alphident did not have a significant impact on SSA’s overall program production data
processing. As of the end of this audit, SSA had not conducted a Performance Impact
Analysis that would help assess the total performance impact on SSA’s users after all
Master Files are converted. We plan to continue to monitor the Project and the potential
performance issues that may occur. If warranted, we will conduct additional audits as
part of our efforts to assess SSA’s future processing capabilities.

Further, SSA did not identify and manage all project risks in a single risk management
plan. SSA should develop a Project Risk Management Plan. The Risk Management
Plan should identify and track risks associated with this Project. Moreover, the Plan
should discuss how the Agency intends to resolve and monitor any potential risks
throughout the Project’s lifecycle. We recommend SSA comply with OMB 38 and SSA’s
Project Management requirements 39 to ensure effective, efficient, and integrated
management of its IT capital investments.




38
     OMB, Capital Programming Guide, supra and OMB Circular A–11, Part 7, Section 300, supra.
39
  SSA’s project management requirements are documented or referenced in its electronic Project
Resource Guide.


Conversion of SSA’s Legacy File Management System (A-14-09-19097)                                12
                                                          Conclusion and
                                                        Recommendations
We found that SSA had effectively implemented the Project to replace MADAM;
however, the Project implementation strategy was not efficient because it resulted in
less than optimal database design. SSA had successfully completed the conversion of
the Numident/Alphident and MEF. The Project team had been working with various
stakeholders in executing the Project and resolving issues encountered during the
process.

Although the project team had performed well in executing the Project, we found that
SSA could improve some of its project life cycle strategic planning practices to ensure
efficient and effective IT investment and resources allocation decisionmaking.
Specifically, we found (1) SSA had not classified the Project as a major IT investment
with OMB; (2) SSA lacked a long-term, comprehensive strategic Project plan; (3) the
Project methodology resulted in a less than optimal design; (4) SSA did not consider
other alternatives for replacing MADAM; and (5) SSA needed to improve certain project
management practices.

To properly plan for future major strategic initiatives, 40 SSA needs to perform sufficient
long-range, comprehensive planning to ensure the continuity of critical services and
most efficient use of government resources.

RECOMMENDATIONS
Based on our review, we recommend that SSA:

1. Discuss with OMB the need to classify the Project as a major IT investment.

2. Establish a long-term, comprehensive strategic plan for the Project and related
   major IT initiatives. For the Project, SSA should establish and document a program
   plan to cover the full scope of the Project. The program plan should include
   estimated costs for all resources, a schedule for all tasks, and performance goals for
   the whole lifecycle of the project.

3. Ensure an Alternatives Analysis is performed for each future major IT investment.




40
     For example, the new NCC and the new disability case processing system.


Conversion of SSA’s Legacy File Management System (A-14-09-19097)                         13
4. Continue with its conversion but also assess the remaining portions of the Project to
   determine the full scope and costs of the current MADAM conversion to DB2
   strategy and document the advantages and disadvantages for delaying the
   application rewrite efforts and the impact on total project costs.

5. Ensure compliance with OMB and SSA’s project management requirements.

AGENCY COMMENTS
SSA agreed with Recommendations 1, 3 and 5, and partially agreed with
Recommendations 2 and 4.

With regard to Recommendation 2, the Agency responded that it believes “…that
describing the long-term objectives of the MADAM conversion has value in developing a
long-term vision for IT that includes the capacity of a modern relational database
management system.”

However, SSA disagreed with the recommendation in the context of the report and
stated that “The authors propose a comprehensive strategic plan that would extend
through all phases. We believe that the extended duration of the project makes a plan
as proposed infeasible. We have developed sufficiently detailed plans for near term
activities, and we have developed conceptual plans for those activities that we will be
undertaking several years from now.” Moreover, the Agency quoted OMB
Circular A-130, which states, “Structure major information systems into useful segments
with a narrow scope and brief duration. This should reduce risk, promote flexibility and
interoperability, increase accountability, and better match mission need with current
technology and market conditions” (Section 8, b. (4) (b)).

With regard to Recommendation 4, the Agency stated that it had “…considered
alternate conversion plans by considering the advantage and disadvantages for the
application rewrite efforts.” However, the Agency stated it “…will not be interrupting the
initial conversion process to determine the full scope and cost. Once the initial
conversion is completed (scheduled for 2013), we will separately implement any other
Master File related efforts, including application rewrites. These efforts will also include
a separate cost benefit, resource allocation, and feasibility analysis.” The full text of
SSA’s comments is included in Appendix E.

OIG RESPONSE
Regarding SSA’s partial agreement with Recommendation 2, we appreciate the
Agency’s comments. However, we reiterate that a long-term, comprehensive strategic
plan should have been established for the Project and any other related major IT
initiatives. Also, SSA should have established and documented a program plan to
cover the full scope of the Project. The program plan should have included estimated
costs for all resources, a schedule for all tasks, and performance goals for the whole life
cycle of the project.


Conversion of SSA’s Legacy File Management System (A-14-09-19097)                         14
We reviewed OMB Circular A-130 Section 8, b. (4) (b) and found this section refers to
how agencies will acquire IT, the acquisition stage of the investment process. OMB
Exhibit 300 Part I, Section B, specifically requires that agencies provide full life-cycle
cost estimates of a major project. 41 The OMB Capital Programming Guide also
stresses the importance of the life-cycle approach in capital planning. 42

As discussed in this report, there are recent examples of inadequate long-term and
integrated strategic planning that resulted in unacceptable risks, project delays, and
budget overruns for the Agency. Insufficient planning also prevented SSA management
from making informed and timely strategic decisions. We believe the development of a
long-term comprehensive strategic plan would assist the Agency in better managing this
critical Project.

Regarding SSA’s partial agreement with Recommendation 4, we reiterate that SSA
should continue with its conversion but also assess the remaining portions of the
Project to determine the full scope and costs of the current MADAM conversion to DB2
strategy and document the advantages and disadvantages for delaying the application
rewrite efforts and the impact on total project costs. We believe an assessment will
assist the Agency to better manage this critical project.




41
  OMB Circular A–11, Part 7, Section 300, Planning, Budgeting, Acquisition, and Management of Capital
Assets, page 13.
42
     OMB, Capital Programming Guide, supra, Section I, page 5.


Conversion of SSA’s Legacy File Management System (A-14-09-19097)                                  15
                                          Appendices




Conversion of SSA’s Legacy File Management System (A-14-09-19097)
                                                                    Appendix A

Acronyms
 API              Application Programming Interface
 CBA              Cost-Benefit Analysis
 CCIA             Computer & Communications Industry Association
 COBOL            Common Business Oriented Language
 DBMS             Data Base Management System
 GAO              Government Accountability Office
 IBM              International Business Machines
 IT               Information Technology
 MADAM            Master Data Access Method
 MBR              Master Beneficiary Record
 MEF              Master Earnings File
 NCC              National Computer Center
 NRC              National Research Council
 OIG              Office of the Inspector General
 OMB              Office of Management and Budget
 Project          MADAM to DB2 Conversion Project
 SSA              Social Security Administration
 SSAB             Social Security Advisory Board
 SSI              Supplemental Security Income
 SSN              Social Security Number
 SSR              Supplemental Security Record




Conversion of SSA’s Legacy File Management System (A-14-09-19097)
                                                                                Appendix B

Scope and Methodology
Our objectives were to (1) evaluate the effectiveness and efficiency of the Social
Security Administration’s (SSA) conversion of its Master Data Access Method 1
(MADAM) file management system to the DB2 Data Base Management System
(DBMS) 2 and (2) provide insights as to best practices and lessons learned for future
system conversions.

To achieve our objectives, we reviewed various planning documents and testing data
related to the MADAM-DB2 Conversion project; interviewed or contacted the project
manager and other relevant SSA staff; participated in the monthly DB2 conversion
project meetings and reviewed meeting minutes; conducted research on topics related
to the Project; and performed other audit steps, as appropriate.

We reviewed the following criteria.
•   Office of Management and Budget (OMB) Circular A-11, part 7, section 300:
    Planning, Budgeting, Acquisition and Management of Capital Assets,
    November 2009
•   OMB Capital Programming Guide Version 2.0, June 2006
•   OMB Circular A-94, Revised, Guidelines and Discount Rates for Benefit-Cost
    Analysis of Federal Programs, October 29, 1992
•   OMB Memorandum M-05-23, Improving Information Technology (IT) Project
    Planning and Execution, August 4, 2005
•   OMB Circular A-130, Management of Federal Information Resources,
    November 2000
•   SSA Cost Benefit Analysis Guidance Fiscal Year 08/09 & Beyond

We interviewed or contacted SSA staff from the Offices of
• Systems, Office of Enterprise Support, Architecture and Engineering; and
• the Chief Information Officer, Office of Information Technology Investment
  Management.



1
 MADAM is a computer system that accesses and manages SSA’s major databases known as Master
Files: Master Beneficiary Record (MBR), Supplemental Security Record (SSR), Master Earnings File
(MEF), and Numident/Alphident. These files contain information used by Social Security programs such
as Retirement, Survivors, and Disability Insurance benefits administered by SSA. See Appendix C for
more detailed information on SSA’s Master Files.
2
 DB2 is one of a family of International Business Machines’ (IBM) DBMSs. A DBMS is a set of computer
programs that controls the creation, maintenance, and use of the database.


Conversion of SSA’s Legacy File Management System (A-14-09-19097)                                 B-1
We reviewed the following documents.

•   SSA’s Master File Management Strategy Conversion to DB2
•   General Project Scope Agreement
•   Project Scope Agreements
•   Supplemental Security Record Proof of Concept
•   SSA MADAM Alternatives Evaluation, January 22, 2003 3
•   National Research Council, Social Security Administration Electronic Service
    Provision: A Strategic Assessment, 2007
•   Social Security Advisory Board, Bridging the Gap: Improving SSA’s Public Service
    Through Technology, April 2009, Pre-publication Release

We conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives. We
conducted our audit at SSA Headquarters in Baltimore, Maryland, from December 2008
through November 2009.




3
 Although this evaluation is named “Alternatives Evaluation,” it is not an Alternatives Analysis as
described by OMB. This Alternatives Evaluation discusses various methods of implementing the DB2
conversion project, instead of different alternatives for replacing MADAM.


Conversion of SSA’s Legacy File Management System (A-14-09-19097)                                     B-2
                                                                       Appendix C

The Social Security Administration’s
Master Files
The Social Security Administration‘s (SSA) Master Data Files contain a large number of
records that are updated weekly, monthly, or quarterly. They are divided into segments,
which are usually divided into smaller, more manageable divisions called subsegments.

Master Beneficiary Record (MBR): The MBR is used by a broad range of SSA
employees for responding to inquiries, generating follow-ups on beneficiary reporting
events, computer exception processing, statistical studies, conversion of benefits, and
generating records for the Department of the Treasury to pay the correct benefit
amount. All Social Security beneficiaries who are, or were, entitled to receive
Retirement and Survivors Insurance, or Disability Insurance benefits, are included in
this database. The system also contains short references to records for persons
entitled to Supplemental Security Income (SSI) payments, Black Lung benefits or
Railroad Retirement Board benefits.

Supplemental Security Record (SSR): The SSR contains a record for each individual
who has applied for SSI payments, including individuals who have requested an
advance payment; SSI recipients who have been overpaid; and ineligible persons
associated with an SSI recipient. This file also contains those individuals who have
applied for and who are entitled to Special Veterans Benefits under Title VIII of the
Social Security Act.

Master Earnings File (MEF): The MEF contains all earnings data reported by
employers and self-employed individuals. The MEF is used to establish, correct, and
maintain SSA’s major earnings files. SSA uses MEF data to determine eligibility for,
and the amount of, Social Security benefits.

Alphident: The Alphident is used to locate an individual’s Social Security number (SSN)
when only the name and date of birth are known.

Numident: The Numident contains the SSN and identity data for all persons issued an
SSN, including the date of birth, citizenship of the claimant, and any death information.




Conversion of SSA’s Legacy File Management System (A-14-09-19097)
                                                                               Appendix D

The Social Security Administration’s DB2
Conversion Project Phases
SSA’s Master Data Access Method (MADAM) to DB2 Conversion project (Project)
consists of three phases.

•   Phase I: Conversion of MADAM data files to DB2 relational database.
•   Phase II: Modification of the application programs to eliminate MADAM interface. 1
•   Phase III: Modification of application programs to directly access the DB2 database.

During Phase I, there will be a minimum number of changes to SSA’s application
programs. This Phase focuses on converting SSA’s Master File databases to DB2
while achieving acceptable performance. According to the Project staff, in Phase II, the
level of software application program rewrite will not be a major effort. However, in
Phase III, software application program rewrites will be a major undertaking. SSA
stated it will conduct a complete assessment before implementing Phase III. The
impacted programs will depend on the specific software programming language
originally used to develop the applications. Significant portions of these applications
were written in Common Business Oriented Language (COBOL).

Following are descriptions of the three phases and high level conceptual diagrams that
depict the changes to SSA’s programmatic data infrastructure. The first diagram
depicts SSA’s data flows before the Project.

                                 Before Conversion
       Applications:
       • SS5                   Data Request
       • Numident                                 MADAM       *
       • Title II                                 Interface                MADAM DBMS and
       • MEF                                                                  Master Files
                              Data Retrieved                              (Numident, MEF, SSR,
       • ROAR...
                                                                                 MBR)




1
 The MADAM Interface directs data requests to the correct databases for processing during Phase I so
SSA can keep the application program changes to a minimum. See sections below for the function of the
MADAM Interface.



Conversion of SSA’s Legacy File Management System (A-14-09-19097)                                D-1
Project Phase I: Conversion of MADAM Data Files to DB2 Relational Database

During Phase I, SSA plans to restructure and convert all its major program Master Files
supported by the MADAM file management system to the DB2 Data Base Management
System (DBMS). Phase I includes four consecutive subprojects to convert the
Alphident/Numident, Master Earnings File (MEF), Supplemental Security Record (SSR)
and Master Beneficiary Record (MBR), respectively.

During this Phase, SSA’s strategy is to keep the changes to application programs that
use MADAM data to a minimum. That is, applications will still make the same data
requests, also known as calls, as they did under MADAM. To achieve this goal, SSA
modified its existing MADAM interface to direct data flows either to access MADAM or
DB2 depending on whether the application uses MADAM or DB2 data. SSA also
developed a DB2 Application Programming Interface (API) to convert the MADAM data
calls to DB2 for application programs that use DB2 databases. 2

To date, SSA has completed the Alphident/Numident and MEF conversions. As of
November 2009, the Alphident/Numident and MEF were converted and stored in a DB2
database, whereas the SSR and MBR were still stored under MADAM. See data flows
of current process below.

                                      Current Process

         Applications:
         • SS5                  Data Request        MADAM
         • Numident                                                        MADAM DBMS and
         • Title II                                 Interface   *             Master Files
         • MEF                 Data Retrieved                               (SSR and MBR)
         • ROAR...



                                                  DB2 API
                                                 (Application
                                                  Programming
                                                  Interface)




                                                 DB2 Database For
                                                 Numident and MEF




2
 API defines the ways by which an application program may request services from libraries and/or
operating systems. Interfaces are the languages and codes that the applications use to communicate
with each other and with the hardware.


Conversion of SSA’s Legacy File Management System (A-14-09-19097)                                    D-2
SSA plans to complete the SSR and MBR conversions by the end of Fiscal Years 2011
and 2013, respectively. After the conversion of the last two Master Files, MADAM will
be replaced by DB2 as SSA’s programmatic data store and DBMS. MADAM will be
retired after the completion of Phase I. At this stage, the MADAM Interface will still exist
because the application programs will still need to make the same data calls as they did
under MADAM. The MADAM Interface directs the data calls to the DB2 API to create
alternative calls to a DB2 database. See diagram below:

                                  After Phase 1
                  Applications:
                  • SS5                 Data Request
                  • Numident                                 MADAM
                  • Title II                                 Interface
                  • MEF                 Data Retrieved
                  • ROAR...



                                                              DB2 API
                                                             (Application
                                                             Programming
                                                               Interface)




                                                          DB2 Database For
                                                           Numident, MEF,
                                                             SSR, MBR



Project Phase II: Modification of the Application Programs to Eliminate MADAM
Interface

During Phase II, SSA will modify its application programs to call the API directly, thus
eliminating the call to the MADAM interface. As stated above, after Phase I is
completed, program applications will still make the same data calls they did under
MADAM. SSA needs to complete Phase II because MADAM holds compressed data,
whereas DB2 stores uncompressed data. Some program applications built around
MADAM use compressed data. Therefore, program applications will have to be
modified to eliminate the processing of compressed data.

SSA plans to implement this Phase differently than Phases I and III. SSA plans to
implement Phase II application by application during their normal program release
cycles, instead of executing an all-inclusive project. Application owners will incorporate
the implementation of Phase II to their applications’ during the next program releases.




Conversion of SSA’s Legacy File Management System (A-14-09-19097)                       D-3
After completion of Phase II, the MADAM API will be retired, see below diagram.

                                     After Phase 2
                    Applications:
                    • SS5               Data Request
                    • Numident
                    • Title II
                    • MEF               Data Retrieved
                    • ROAR...


                                                            DB2 API
                                                           (Application
                                                           Programming
                                                            Interface)




                                                         DB2 Database For
                                                          Numident, MEF,
                                                            SSR, MBR



Conversion Project Phase III: Modification of Applications to Directly Access the
DB2 Database

The remaining portion of the MADAM environment will be completely eliminated after
Phase II; however, application programs will still not have access to DB2 databases
directly. During Phase III, SSA will rewrite all application programs to call DB2 data
directly. After this Phase is completed, SSA’s program data infrastructure will be
completely converted to a DB2 environment.

SSA stated it needs to conduct additional analysis on the scope, timing, and resources
needed before implementing Phase III. SSA considers Phase III a separate effort from
Phases I and II. See diagram below after completion of Phase III.

                                    After Phase 3
                   Applications:
                   • SS5
                   • Numident
                   • Title II                             DB2 Database For
                   • MEF                                   Numident, MEF,
                   • ROAR...                                 SSR, MBR




Conversion of SSA’s Legacy File Management System (A-14-09-19097)                    D-4
                                                                    Appendix E

Agency Comments




Conversion of SSA’s Legacy File Management System (A-14-09-19097)
                                          SOCIAL SECURITY

MEMORANDUM



Date:      April 22, 2010                                                          Refer To:

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor
           to the Commissioner

Subject:   Proposed Comments to the Office of the Inspector General (OIG) Draft Report, “Conversion of
           the Social Security Administration’s Legacy File Management System” (A-14-09-19097)—
           INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our revised response to the report
           recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment




           Conversion of SSA’s Legacy File Management System (A-14-09-19097)                         E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “CONVERSION OF THE SOCIAL SECURITY ADMINISTRATION’S LEGACY
FILE MANAGEMENT SYSTEM” (A-14-09-19097)

This OIG report recognizes the important progress the agency has made in replacing our legacy
file management system, Master Data Access Method (MADAM). Since 2005, we have steadily
converted some of the largest databases in the Federal Government from a 25 year-old, agency-
developed file management system to a modern database management system that has the
capability to operate as a relational database. Our approach has been very conservative, as our
operations depend on the functioning of these very large data repositories. In the first phase, we
are converting one database at a time from MADAM to DB2 without altering the fundamental
data access design. This allows us to transition away from MADAM without having to rewrite
major portions of our core applications and incurring additional risk. We managed to convert
over half of our major databases without any significant negative impact on our operations.
Future phases will enable us to utilize the full capabilities of DB2 directly.

The OIG has stated that we should have developed a long-term, comprehensive strategic project
plan. We disagree. The Office of Management and Budget’s (OMB) Circular A-130, which
states, “Structure major information systems into useful segments with a narrow scope and brief
duration. This should reduce risk, promote flexibility and interoperability, increase
accountability, and better match mission need with current technology and market conditions”
(Section 8, B (4) (b)). We have approached the MADAM conversion in usable segments, which
has enabled us to realize benefits in the first phase while maintaining flexibility and reducing
risk.

Recommendation 1

SSA should discuss with OMB the need to classify the Project as a major Information
Technology (IT) investment.

Comment

We agree that we should discuss the MADAM conversion project with OMB. In fact, we have
already begun these conversations. The designation of a major investment is a matter of
negotiation between agency management and OMB. Our initial discussions have not indicated
that the MADAM conversion project should be designated a major IT investment at this time,
though later phases may rise to that level. OMB understands that we can and should oversee and
manage the MADAM conversion project at the same level with or without an Exhibit 300t.
Furthermore, we are currently implementing a new IT investment management process that will
improve the executive oversight of all significant IT investments, regardless of whether or not
they are subject to an Exhibit 300.




Conversion of SSA’s Legacy File Management System (A-14-09-19097)                              E-2
Recommendation 2

Establish a long-term, comprehensive strategic plan for the Project and related major IT
initiatives. For the Project, SSA should establish and document a program plan to cover the full
scope of the Project. The program plan should include estimated costs for all resources, schedule
for all tasks, and performance goals for the whole lifecycle of the project.

Comment

We partially agree. We have developed sufficiently detailed plans for near term activities, and
we have developed conceptual plans for those activities that we will be undertaking several years
from now. We believe that describing the long-term objectives of the MADAM conversion has
value in developing a long-term vision for IT that includes the capability of a modern relational
database management system. However, we do not intend to delay progress on the tasks
currently underway because doing so would increase the risk of relying on the antiquated
MADAM system for many more years.

We disagree with the recommendation in the context in which it is presented in the report. The
authors propose a comprehensive strategic plan that would extend through all phases. We
believe that the extended duration of the project makes a plan as proposed infeasible. As we
move forward, we will develop plans for future Master File efforts/phases that could involve
software rewrites of certain applications to exploit the additional features of the new technology.
These plans will include a level of detail that is appropriate for the time horizon being addressed.
If the planning horizon is several years, the plan will necessarily include fewer details than a plan
for the next year or two. We will plan for these subsequent phases as separate efforts, and we
will include a separate cost benefit, resource allocation, and feasibility analysis for each phase.

Recommendation 3

Ensure an Alternatives Analysis is performed for each future major IT investment.

Comment

We agree. Alternatives analyses are required for investments classified as “major IT
investments” and supported by an OMB Exhibit 300. We did not classify the Legacy File
System Conversion as a major investment. We believe that an alternatives analysis is appropriate
for many IT investments that do not qualify as a “major IT investment” per OMB guidance. We
will develop guidance that requires alternatives analyses even for major projects that are not
classified as a “major IT investment.”

In regards to the Master File conversion, we are currently conducting an alternatives analysis
with each upcoming phase of implementation for the MADAM project. We will continue with
that approach.




Conversion of SSA’s Legacy File Management System (A-14-09-19097)                                E-3
Recommendation 4

Continue with its conversion but also assess the remaining portions of the Project to determine
full scope and costs of the current MADAM conversion to DB2 strategy and document the
advantages and disadvantages for delaying the application rewrite efforts and the impact on total
project costs.

Comment

We partially agree. We will not be interrupting the initial conversion process to determine the
full scope and cost. Once the initial conversion is completed (scheduled for 2013), we will
separately implement any other Master File related efforts, including application rewrites. These
efforts will also include a separate cost benefit, resource allocation, and feasibility analysis.
Currently, we document the cost and scope of the Master File conversion in SPARS.

The initial Master File conversion effort primarily focuses on the elimination of risks associated
with being reliant on the antiquated MADAM database architecture. We considered alternate
conversion plans by considering the advantages and disadvantages for the application rewrite
efforts. Our chosen methodology has the following advantages:

        1) There is no disruption to our on-going workloads, and

        2) In the most expeditious manner, we eliminate the risk of relying on MADAM.

Since the continued availability of our major data files are of the highest concern, we chose the
least intrusive implementation strategy for our database conversion. Had we chosen a
conversion plan that involved a “full rewrite” of our systems, we would have severely prolonged
the conversion effort and increased the risk of relying on the antiquated MADAM system for too
long. If we delayed the conversion timeframes, we would be vulnerable to prolonged system
outages due to the programmers and analysts’ lack of knowledge of the MADAM system, and
this would impede field office workloads. Therefore, the risk of delay outweighs any potential
costs.

Recommendation 5

Ensure compliance with OMB and SSA’s project management requirements.

Comment

We agree. We currently have processes in place to ensure compliance with our and OMB’s
project management requirements, but we will assess the effectiveness of these processes. As we
replace MADAM, we are actively working to ensure full compliance with sanctioned project
governance and guidelines.




Conversion of SSA’s Legacy File Management System (A-14-09-19097)                               E-4
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Brian Karpe, Director, Information Technology Audit Division

   Mary Ellen Moyer, Audit Manager

Acknowledgments
In addition to those named above:

   Grace Chi, Auditor-in-Charge

   Alla Resman, Information Technology Specialist

   Tina Nevels, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-14-09-19097.




Conversion of SSA’s Legacy File Management System (A-14-09-19097)
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
